HHS/OIG, Audit -"Audit of Nursing Facility Staffing Requirements at Infinia at Granite Hills, Inc.,"(A-07-03-04028)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Nursing Facility Staffing Requirements at Infinia at Granite Hills, Inc.," (A-07-03-04028)
May 28, 2004
Complete
Text of Report is available in PDF format (233 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Infinia at Granite Hills, Inc. (Infinia) was in compliance with
federal and state staffing laws and regulations for nursing facilities.  Federal and State regulations require that
the facility employ a Registered Nurse (RN) for at least 8 consecutive hours a day, 7 days a week.  The facility did
not routinely meet this requirement.  Also, Utah regulations require that direct care nursing stuff such as certified
nurse assistants be currently certified in the state of Utah.  One Certified Nurse Assistant had an expired certificate.  Another
was certified in California, not in Utah.  Utah regulations require that nursing facilities maintain direct care staff
licenses or certifications for review.  Infinia did not have the certifications on file for four of the facility's
Certified Nursing Assistants as required.  Utah regulations require facilities such as nursing facilities perform
a Bureau of Criminal Identification screening.  The facility did not have documentation to show that the screening
had been performed on two of its direct care employees.  We recommended that Infinia take action to ensure, the facility
is staffed with an RN for 8 consecutive hours a day, 7 days a week; all direct care nursing staff hold current Utah licenses,
certifications, or registrations; copies of licenses and certifications for all direct care nursing staff are maintained
at the facility; and Evidence of Bureau of Criminal Identification screenings is maintained.  Infinia agreed with
our recommendations and has agreed to take corrective action.